BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in John W
Orem; Sher Orem v. Matthew W. Gillmore,
Individually; John Doe, Individually, was sent via Two
Day Service to the U.S. Supreme Court, and 3 copies
via Two Day and e-mail service to the following parties
listed below, this 22nd day of December, 2020:
Tracey Brown Eberling
Steptoe & Johnson PLLC
1250 Edwin Miller Blvd., Suite 300
Martinsburg, WV 25404
(304) 262-3532
tracey.eberling@steptoe-johnson.com
Counsel for Respondents
Christian J. Riddell
Counsel of Record
329 S. Queen Street
Martinsburg, WV 25401
(304) 267-3949
stedmanriddell@gmail.com
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

1

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 22, 2020.

Donna J. Wolf
Becker Gallagher Legal Pu s · g, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date :

~ k d ').(

(Pfl,_ !;!,

Notary Public

a-o;Jo

~

[seal]

JOHN D. GALLAGHER
Notary Public, State of Otio
My Commission Expires
February 14, 2023

